APPENDIX
A

APPENDIX A

SUPREME COURT OF THE STATE OF NEW YORK
APPELLATE DIVISION, FOURTH JUDICIAL DEPARTMENT

1147
KA 16-00185
PRESENT: WHALEN, P.J., CENTRA, PERADOTTO, AND NEMOYER, JJ.
THE PEOPLE OF THE STATE OF NEW YORK, RESPONDENT,
Vs.

MEMORANDUM AND ORDER

JUSTIN WOODARD, DEFENDANT-APPELLANT.
EDELSTIEN & GROSSMAN, NEW YORK CITY (JONATHAN I. EDELSTIEN OF
COUNSEL), FOR DEFENDANT-APPELLANT.
SANDRA DOORLEY, DISTRICT ATTORNEY, ROCHESTER (LEAH R. MERVINE OF
COUNSEL), FOR RESPONDENT.

Appeal, by permission of a Justice of the Appellate Division
of the Supreme Court in the Fourth Judicial Department, from an
order of the Supreme Court, Monroe County (Francis A. Affronti,
J.), entered December 26, 2015. The order denied the motion of
defendant to vacate a judgment of conviction pursuant to CPL §
440.10.
It is hereby ORDERED . that the order so appealed from is
unanimously affirmed.
Memorandum:
Defendant appeals by permission of this court
from an order denying without a hearing his motion pursuant to CPL
article 440 seeking to vacate on, inter alia, the ground of
ineffective assistance of counsel the judgment convicting him upon
a jury verdict of murder in the second degree (Penal law §

1A

125.25[3]) and attempted robbery in the first degree (§§ 110.00,
160.15[2]). We previously affirmed that judgment of conviction
(People v. Woodard, 96 AD3d 1619, (4th Dept. 2012), lv denied 19
NY3d. 1030 [2012]).
Defendant contends that he was denied effective assistance of
counsel because defense counsel
failed
to
investigate
the
circumstances under which defendant provided a written statement to
police. Preliminarily, we agree with defendant that his ineffective
assistance of counsel' claim is not procedurally barred by CPL
440.10(2)(c).
With respect to the merits, "[a] defendant's right to
effective assistance of counsel includes counsel's reasonable
investigation" (People v. Rossborough, 122 AD3d 1244, 1245 [4th
Dept. 2014]; see People v. Howard, 175
AD3d 1023, 1025 [4th
Dept.2019]; People v. Jenkins, 84 AD3d 1403, 1408 [2nd Dept. 2011]
lv. denied 19 NY3d 1026 [2012]). Although "the failure to
investigate may amount to ineffective assistance of counsel"
(Rossborough, 122 AD3d at 1245; see People v. Kurkowski, 117 AD3d
1442,
1443 [4th Dept. 2014]),
the
governing standard is
SI I
reasonable competence' not perfect representation" (People v.
Modica, 64 NY2d 828, 829 [1985]; see People v. Young 167 AD3d 1448,
1449 [4th Dept 2008], lv denied 33 NY3d 1036 [2019]).
Here, defendant alleges that he invoked his right to counsel
while in police custody prior to giving a written statement to
police. Defendant contends that defensecounsel'sfailure to
discover that fact during his investigation of defendant's case
amounts to ineffective assistance. We disagree. Defense counsel
properly requested and received discovery materials and filed an
Omnibus
Motion on defendant's behalf seeking,
inter alia,
suppression of defendant's written statement.
The discovery
materials produced gave no indication that defendant requested a
lawyer at any time, and the testimony adduced at the ensuing Huntly
hearing established that defendant freely and voluntarily

2A

1147
KA 16-00185

waived his right to counsel prior to giving his written statement
to police. Defendant admittedly failed to inform defense counsel
that he invoked his right to counsel prior to giving the written
statement until after the Huntly hearing, at which point defense
counsel moved to reopen the hearing. Thus, the record establishes
that defense counsel sufficiently investigated the facts, and
defense counsel's failure to argue or elicit information at the
Huntly hearing tending to show that defendant had invoked his right
to counsel while in police custody is attributable to defendant's
failure to inform him of that alleged fact (see Young, 167 AD3d at
1450; People v. Bradford, 202 AD2d 441, 442 [2nd Dept. 1994]. lv
denied 84 NY2d 823 [1994]).

ENTERED: JANUARY 31, 2020.

3A

V

APPENDIX
B

APPENDIX B

SUPREME COURT OF MONROE COUNTY
ROCHESTER, NEW YORK
DECEMBER 23, 2015

Jane S. Myers. Esq.
60 Remsen Street, Suite 4E
Brooklyn, New York, 11201-3414
Justin Woodard, 09-B-1588
Eastern N.y Correctional Facility
30 Institution Rd.d
P.0. Box 338,
Napanoch, New York, 12458-0338
Geoffrey Kaeuper, Esq.
Assistant District Attorney
47 S. Fitzhugh Street, Suite 832
Rochester, New York, 14614
RE:

People v. Justin Woodard
IND. No. 2008-0769
DECISION AND ORDER

Dear Ms. Myers, Mr. Woodard and Mr. Kaeuper:
Defendant stands convicted, following a jury trial of Murder
in the Second Degree (felony Murder) and Attempted Robbery in the
First degree in connection with the shooting death of the victim on
or about January 14, 2007 by one or both of his co-defendants. On
direct appeal, the judgment of conviction was affirmed (see People
v. Woodard, 96 AD3d 1619.[2012]. lv denied 19 NY3d 1030).
By notice of Motion dated April 27, 2015, the defendant, pro­
se, seeks an order pursuant to CPL 440.10(l)(b),(c),(f) and (h)

4A

People v. Justin Woodard
IND. No, 2008-0769

vacating his conviction. The motion is supported by defendant's
affidavit and Memorandum of Law. By. answering affirmation of
Assistant District Attorney, Geoffrey Kaeuper, Esq., dated June 9,
2015,. the people oppose the motion. The defendant further submits
an amended affidavit with minor changes. '
By Notice of Motion dated June 23, 2015, Jane S. Myers, Esq.,
on behalf of. the defendant
moves for an order permitting the
defendant to 'supplement and amend his pro-se Motion. The court
granted the application, and the defendant additionally seeks,
pursuant to CPL 440.10(1)(d),(f) and (h), to vacate the judgment of
conviction by an attorney affirmation of Ms. Meyers, dated
September 25, 2015, affidavits of Defendant and his brother,
Sinclair Mountain, sworn to September 1 and 4, 2015, respectively,
a Memorandum of Law, and a six-volume appendix.
The people further oppose the motion, as supplemented by the
answering Affirmation of Mr. Kaeuper, dated November 9, 2015, with
an attached
exhibit
(Robert
Brewer's
statement
to police
inadvertently omitted from the Appendix). All of the above have
been thoroughly reviewed and are incorporated herein by reference
in rendering this decision.
Upon review of same, including the official Court record, the
Defendant's motion is herewith denied
(see CPL 440.30; People
v. Satterfield, 66 NY2d 796, 799; People v. Maddox, 256 AD2d 1068,
lv denied 93 NY2d 875), for the reasons stated in the People's
answering Affirmations (see CPL 440.30[4][a-c]).
The defendant's contentions that the prosecution suborned
perjury is not supported by "sworn allegations substantiating or
tending
to
substantiate
all
the
essential
facts"
(CPL
440.30[4][b]). Further, his argument that the people failed to
indict him within the time period for preliminary hearings is also
without merit (see CPL 440.30[4] [b] ).

5A

People v. Justin Woodard
IND. No. 2008-0769
The defendant asserts, as well, that the judgment .of
conviction is subject to vacatur because he was denied effective
assistance of counsel by trial counsel's failure to investigate and
request suppression of his statement to police on the ground that
he invoked his right to counsel when detained by the Elmira Police
Department. The appendix reflects that counsel sought to reopen the
suppression hearing on the basis that defendant invoked his right
to counsel, which motion was denied (see Appendix Vol.2 at A378A385, A396-A399, A403-405).- Thus, the alleged deficiency in
counsel's
representation is apparent from the record,
and
therefore, no hearing is required (see CPL 440.10[2][c]).
In any event, a single error by otherwise competent trial
counsel does not generally deprive a defendant of his or her
constitutional right to effective assistance of Counsel (see People
v. Turner, 5 NY3d 476, 480-481). Only where a single failing is of
such prejudicial magnitude that there exists a reasonable
likelihood of a different outcome would defendant be so deprived
(see People v. Caban, 5 NY3d 143, 152; People v. Douglas, 296 AD2d
656, 657, lv denied 99 NY2d 535; People v. I^rue, 26 AD3d 671-672,
lv denied 7 NY3d 816). Even assuming arguendo, that counsel erred
in not investigating and advancing the argument that defendant
earlier invoked his right to counsel and the motion to suppress his
statement to police would have been successful, defendant's
testimony before the Grand Jury, which was consistent with his
statement to police, was nevertheless considered by the Jury
(Woodard, 96 AD3d at 1621). Thus, the alleged error by counsel was
not so prejudicial as to have likely resulted in a different trial
outcome (see Caban 5 NY3d 143, 152).
Any claims not specifically addressed herein are likewise
deemed to be without merit and could have been raised or, in fact,

6A

People v. Justin Woodard
IND. No. 2008-0769

were raised on defendant's direct appeal. Therefore, they are
likewise denied (see CPL 440.10[2][a],[c]; People v. Bruno, 97 AD3d
986, Iv denied 20 NY3d 931; People v. Vigliotti, 24AD3d 1216).
To the extent that defendant is pro~se, pursuant to 22 NYCRR
Sec. 1039(a) he is hereby advised that he has the right, within the
time provided by statute, to file a motion before the Appellate
.Division, Fourth Department, for leave to appeal from this Order
and for permission to proceed as a poor Person.
The above constitutes the Decision and Order of the court.

Dated this 23 day of December, 2015, at Rodchester, New York.

FRANCIS A. AFFRONTI
Supreme Court Justice.

7A

;

APPENDIX
C

APPENDIX C
STATE OF NEW YORK
COURT OF APPEALS
BEFORE: HON: ROWAN D. WILSON, Associate Judge
THE PEOPLE OF THE STATE OF NEW YORK,
RESPONDENT,

ORDER
DENYING
LEAVE

-againstJUSTIN WOODARD,
APPELLANT.

Appellant having applied for leave to appeal to this court
pursuant to Criminal Procedure Law § 460.20 from an order in the
above-captioned case;
UPON the papers filed and due deliberation, it is
ORDERED that the application is denied.

Dated: April 9, 2020

Associate Judge
Description of order: Order of the Supreme Court, Appellate
Division, Fourth Department, entered January 31, 2020, affirming
an order of the Supreme Court, Monroe County, entered December
26, 2015.

8A

I

APPENDIX
D

APPENDIX D

FIFTH AMENDMENT STATEMENT

No person shall be held to answer for a Capitol crime, or otherwise
infamous crime, unless on a presentment or indictment of a Grand Jury...; nor
shall any person be subject for the same offense to be twice put in jeopardy of
life or limb; nor shall be compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property, without due process of
law;

nor shall private property be

taken for public use,

without just

compensation.

SIXTH AMENDMENT STATEMENT
In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the state and district wherein the
crime shall have been committed which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the accusation,
to be confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the assistance of counsel for his
defense.

FOURTEENTH AMENDMENT STATEMENT
All persons bom or naturalized in the United States, and subject to the
Jurisdiction thereof, are citizens of the United States and of the state wherein
they reside, no state shall make or enforce any law which shall abridge the

9A

privileges or immunities of citizens of the United States; nor shall any state
deprive any person of life, liberty, or property, without due process of law; nor
deny any person within its jurisdiction the equal protection of the law.

SIMILARITIES AND DISTINCTIONS BETWEEN STATE AND FEDERAL CONSTITUTIONS.

Both the Federal and State Constitutions provide that the state may not
deprive a person of property without due process of law. The similarity of the
State and Federal Due Process provisions is more than a similarity of language.
The impact of the provisions is the same, and a statute repugnant to the Due
process clause of the State Constitution is also repugnant to the Due Process of
the 14th Amendment.
However, under the State due process clause, a court may impose higher
standards than those held to be necessary by the United States Supreme Court under
the corresponding Federal Constitutional provision, People v. Isaacson, 44 N.Y.2d
511; 378 N.E.2d 78

Thus at times, the due process clause of the New York

Constitution is more protective of rights than its Federal Counterpart, usually in
cases involving the rights of Criminal defendant's. Hernandez v. Robles, 7 N.Y.3d
338. In an Appellate case, the protections provided by New York's Due Process
clause

will

be

afforded more

expansive

interpretation

than

the

federal

Constitution, Samuels v. New York State Dept, of Health. 29 A.D.3d 9. When the New
York Constitution is asserted, it is appropriate to consider whether the history
and traditions unique to the state points clearly to the need for additional
protection beyond that afforded by the United states Constitution, see Samuels,
Supra.

10A

It has been said that the Historical differences between the Federal.& State
Due process clauses make clear that they were adopted to combat entirely different
evils,

the 14th Amendment was watershed,- an atterapt to extend and catalogue a

series of natural privileges and immunities, thereby furnishing minimum standards
designed to guarantee the individual protection against the potential abuses of a
monolithic government. In contrast, State Constitutions in General, and the New
York Constitution in particular, have long safeguarded any threat to individual
liberties, irrespective of from what quarter that peril arose, People v. Taylor, 9
N.Y.3d 129. Due process clause in the New York Constitution provides greater
protection than its Federal counterpart as construed by the United States Supreme
Court, U.S.C.A Const. Amend. 14; Mckiimey's Const. Art. 1 § 6, People v, Hamilton,
979 N.Y.S.2d 97 (App. Div. 2nd Dept. 2014).

RELEVANT STATE AND FEDERAL STATUTORY PROVISIONS

FEDERAL PROVISIONS

RULE 410 - PLEAS, PLEA DISCUSSIONS AND RELATED STATEMENTS

A)

Prohibited Uses, In a Civil or Criminal case, evidence of the folowing IS NOT
ADMISSIBLE against the defendant who made the. plea or participated in plea
discussions:

1)

A guilty plea that was later withdrawn.

2). A nolo Contendere plea

11A

3)

A statement made during a proceeding of those pleas under Federal Rules of
Criminal Procedure, or a Comparable State Procedure; or

4)

A statement made during plea discussions with an attorney for the prosecuting
authority if the discussions did.not result in a guilty plea, or they resulted
in a later withdrawn plea..

B) EXCEPTIONS. The court may admit a statement described in rule 410a 3 or 4:
1)

In any proceeding in which another statement made during the same plea or plea
discussions has been introduced, if in fairness the statements ought to be
considered together; or

2)

In a Criminal .proceeding for perjury or false statement, if the defendant made
the statement under oath, on the record, and with counsel present.

FEDERAL RULES OF CRIMINAL PROCEDURE - 11(e)(6)(d)

E) Plea Agreement Procedure
6)

Inadmissibility of pleas, plea discussions, and related statements, except as
otherwise provided in this paragraph, evidence of the following is not, in any
Civil or Criminal Proceeding, admissible against the defendant who made the
plea or was a participant in the plea discussions.

d)

Any statement made in the course of plea discussions with an attorney for the
government which do not result in a plea of guilty or which result in a plea of
guilty later withdrawn.
However, such statement is admissible:

i)

In any proceeding wherein another statement made in the course of the same plea
or plea discussion has been introduced and the statement ought in fairness be
considered contemporaneously with it, (ii) in a criminal proceeding for perjury

12A

or false statements if the statement was made by the defendant under oath, on the
record, and in the presence of counsel.

18 U.S.C.A 6003
Whenever a witness refuses, on the basis of his privilege against selfIncrimination, to testify or provide other information in a proceeding before or
ancillary to(1) A court or Grand Jury of the united States.
(2) An agency of the United States, or
(3)

Either house of congress, a joint committee of the two houses, or a
subcommittee of either house, and the person presiding over the proceeding
comnunicates to the witness an order issued under this title, the witness may
not refuse to comply with the order on the basis of his privilege against
self-incrimination, but no testimony or other information may be used against
the witness in any criminal case, except a prosecution for perjury, giving
false statements, or otherwise failing to comply with the order.

STATE STATUTORY PROVISIONS
McKinney's CPL § - Rules Of Evidence
Admissibility of Statements of Defendants.
1) Evidence of a written or oral confession, admission, or other statements made
by a defendant with respect to his participation or. lack of participation in
the offense charged, may not be received in evidence against him in a
criminal proceeding if such statement was involuntarily made.

13A

A confession, admission or other statement is "involuntarily made" by a

2)

defendant when it is obtained from him:
A) By any person by the use or threatened use of physical force upon the defendant
or another person, or by means of any other improper conduct or undue pressure
which impaired the defendant’s physical or mental condition to the extent of
undermining his ability to make a choice whether or not to make a statement, or
B)

By . a public servant engaged in law enforcement activity or by a person then
acting under his direction or in cooperation with him:

i) By means of any promise or statement of fact, which promise or statement creates .
a substantial risk that the defendant might falsely incriminate himself, or
ii)

In violation of such rights as the defendant may derive from the Constitution
of this state or of the United States.

3)

Subdivision 3 of CPL § 64.45 is not relevant to.the unique circumstances of the
instance case and is therefore omitted.

CONSTITUTIONAL BASIS OF CPL § 60.45(1)

Subdivision (1) restates the Federal and State Constitutional imperative
that a "statement made by "a defend'ant~with “ respect to his participation or lack •
of participation in the offense charged, may not be received in evidence against
him [or her] in a criminal proceeding if such statement was-involuntarily made,"
see U.S Const. Amend. V [ No person "shall be compelled in any criminal case to
be a witness against himself"] and XIV [ No state shall "deprive any person of
life, liberty, or property, with Due Process of Law"] and N.Y Const. Art. 1 § 6
[no person shall "be compelled in any criminal case to be a witness against

14A

himself or herself".]
The evolution of the Federal Standard of Voluntariness, which applies to the
states, is highlighted by the following three cases: Brown v. Mississippi, 297
U.S 278,

279,

56 S.Ct.

461,

462,

801 L.E.d 682

(1936)

(holding,

before

application of the Fifth Amendment to the states, that a confession extorted by
officers of the state by brutality and violence violates the Due Process clause
of the Fourteenth Amendment); Chambers v. Florida, 309 U.S 227, 60 S.Ct 472, 84
L.E.d 716 (1940) (recognizing that coercion can be mental as well as physical);
Malloy v. Hogan, 378 U.S 1, 6, 84 S.Ct. 1489, 1492, 121 L.E.d2d 653 (1964)
(applying the Fifth Amendment exemption from compulsory self-incrimination to the
states and thereby holding that the examination of a confession was not limited
by the Due Process clause, that is "the Constitutional inquiry is not whether the
conduct of state officers in obtaining the confession was shocking, but whether
the confession was 'free and voluntary that is (it) must not be extracted by any
sort of threats or violence, nor obtained by any direct or implied promises,
however slight, nor by the exertion of any improper influence'")
Standards adjudging whether a custodial statement was produced voluntarily
were inadequate to stem law enforcements continued abuse of one interrogation
process. Thus, the court decided in Miranda v. Arizona, 384 U.S 436, 444-45, 86
S.Ct. 1602, 1612, 16 L.E.d 2d 694 (1966), that "the prosecution
statements

whether

exculpatory

or

inculpatory,

stemming

may not use

from

custodial

interrogation of the defendant unless it demonstrates the use of procedural
safeguards effective to secure the privilege against self-incrimination... prior
to any questioning, the person must be warned that he has a right to remain
silent, that any statement he does make may be used against him, and

15A

that he has a right to the presence of an attorney, either retained or appointed.
The defendant may waive effectuation of these rights, provided the waiver is made
voluntarily, knowingly and 'intelligently. If, however, he indicates in any manner
at any stage of the process that he wishes to consult with an attorney before
. speaking there can be no questioning. Likewise, if the individual is alone and
indicates in any manner that he does not wish to be interrogated, the police may
not question him.
Before Miranda, New York declined to require preinterrogation warnings,
People v. Gunner. 15 N.Y.2d 226, 232, 257 N.Y.S.2d 924, 205 N.E.2d 852 (1965).
Since Miranda, however, New York has "embraced’* the Miranda rule "as consistent
with Article 1 § 6 of the New York Constitution"; it may therefore provide
"rights broader than those guaranteed under the Fifth Amendment". People v.
Paulman, 5 N.Y.3d 122, 800 N.Y.S.2d 96, 833 N.E.2d 239 (2005), citing e.g.,
People v. Bethea, 67 N.Y.2d 364,. 502 N.Y.S.2d 713, 493 N.E.2d 937 (1986).
Further, the New York Constitution's "right to counsel" rules, a violation of
which may result in the suppression of a "voluntary" statement, are in varying
aspects broader than the United States Constitution's, see NY court of Appeals on
Criminal law, Ch.7, Part I, confession, Counsel, Overview.
In sum, "basically, two Constitutional issues are involved: (1) Statements
coerced- by- a -public servant; and (2) Constitutional, guidelines that public
servants MUST follow for obtaining a statement from a suspect in custody. The
difference between the two is that obtaining evidence through coercion by a
public servant violates the Constitutional privilege against Self-incrimination
and fundamental Due process, resulting in preclusive.. .use of any information
obtained

or

derived

therefore.

Violation

of

the

guidelines

results

Constitutional preclusion of a testimonial communication obtained for proof of

16A

in

•

the people's case". Thus, a voluntary statement taken in violation of the
preinterrogation warnings, while not admissible on the people's direct case, may
be used to impeach the credibility of a defendant who testifies and gives
testimony inconsistent with his or her statement. Harris v. New York, 401 U.S
222, 224, 91 S.Ct. 643, 28 L.E.d.2d 1 (1971) affirming people v. Harris, 25
N.Y.2d 175, 303 N.Y.S.2d 71, 250 N.E.2d 349 (1969).

CPL § 190.40. GRAND JURY, WITNESSES, COMPULSORY OF EVIDENCE AND IMMUNITY

1)

Every witness in a Grand Jury proceeding must give any evidence legally
requested of him regardless of any protest or belief on his part that it may
tend to incriminate him.

2)

A witness who gives evidence in a Grand Jury proceeding receives immunity
unless:

A) He has effectively waived such immunity pursuant to section 190.45, or
B)

Such evidence is not responsive to any inquiry and is gratuitously given or
volunteered by the witness with knowledge that it is not responsive.

G) The evidence given by the witness consists only of Books, paper's, records or
other physical evidence of an enterprise, as defined in Subd. one of sec.
1750. of the Penal Law, the production of which is required by a subpoena
duces tecum, and the witness does not poses a privilege against self­
incrimination with respect to the production of such evidence. Any further
evidence given by the witness entitles the witness to immunity except as
provided in Subparagraph 1 (a) and (b) of this subdivision.
This section confers automatic transactional immunity upon every witness

17A

who gives evidence in the Grand Jury; subject only to the exceptions set forth in
Subd. Two. In this respect immunity in New York Grand Jury proceedings differ
from Federal Practice, where a Grand Jury witness must invoke the Fifth Amendment
privilege against self=incrimination before the Government is put to the election
of trading Immunity for testimony (see e.g., United States v. Washington, 431 U.S
181, 97 S.Ct. 1814, 521 L.E.d.2d 238 [1977]), and differs as well from Immunity
in other New York Proceedings, where the witness must assert the privilege to
receive Immunity (see GPL § 50.20[4]). Under the CPL, a witness cannot invoke the
privilege against self-incrimination in the Grand Jury (See CPL §§ 50.20[1],
190.40[l]) and no one confers Immunity upon the witness, Immunity is AUTOMATIC.
The automatic immunity feature provided in this section was put forward as a
method of solving a long tangled history of confusing litigation revolving about
the issue of the rights of a suspect or "target" subpoenaed to give evidence
before a Grand Jury. The court of Appeals has held that compelling a target to
appear before the Grand Jury violates the New

York Constitutional privilege

against self-incrimination (see e.g., People v. Steuding, 6 N.Y.2d 214, 189
N.Y.S.2d 166, 160 N.E.d2d 468 (1959) Moreover, various other holdings have ruled
that such witnesses not only would have Immunity but also could not be charged
with perjury or contempt for their answers or refusal to answer. Accordingly the
CPL neutralized the New York Constitutional problems by granting automatic
immunity to all witnesses, so that a subpoena to appear and give evidence would
not violate the rights of any witness, whether target, or not

» * i

This simple device, in combination with New York’s unnecessary adherence to
transactional - rather than use - immunity, raises a separate difficulty, which
may occur through inadvertently calling a perpetrator who is not suspected of any

18A

complicity in the offense to testify regarding the incident. Such a witness,
upon giving an answer responsive to any inquiry that has any bearing on the
incident, receives automatic Transactional immunity and can never thereafter be
prosecuted for his of her criminal responsibility for that incident, see e.g.,
People v. Williams, 56 N.Y.2d 916, 453 N.Y.S.2d 430, 438 N.E.2d 1146 (1982).
affirming on the opinion below at 81 A.D.2d 418, 440 N.Y.S.2d 935 (2nd dept.
1981). Indeed, a witness may even receive transactional Immunity for a crime
totally unrelated to the one under investigation by responding to a single
(

question regarding a seemingly innocuous fact — e.g., the witnesses occupation.
Moreover, as noted by Judge Bellacose in his 1981 commentaries on this section,
subsequently cited by the court of Appeals a prosecutor will have a difficult
time avoiding these consequences on the asserted ground that an answer was nonresponsive or volunteered, because a "high burden is placed on the prosecutor to
establish non-responsiveness" see Brockway v. Monroe, 59 N.Y.2d 179. 189. 464
N.Y.S.2d 410, 451 N.E.2d 168 (1983).

CPL § 50.20, COMPULSION OF EVIDENCE BY OFFER OF DMJNITY

1)

Any witness in a legal proceeding, other than a Grand jury proceeding, may
refuse to give evidence requested of him on the ground that it may tend to
incriminate him and he may not, except as provided in subdivision two, be
compelled to give such evidence.

2)

Such a witness may be compelled to give evidence in such a proceeding
notwithstanding an assertion of his privilege against self-incrimination if:

A)

The proceeding is one in which, by express provision of statute, a person
conducting or connected therewith is declared a competent authority to

19A

confer immunity upon witnesses therein, and
B)

Such competent authority (i) orders such witness to give the requested
evidence notwithstanding his assertion of his privilege against self­
incrimination, and (ii) advises him that upon so doing he will receive
Immunity.

3) A witness who is ordered to give evidence pursuant to subdivision two and who
complies with such order receives immunity. Such witness is not deprived of
such immunity because such competent authority did not comply with statutory
provisions requiring notice to a specified public servant of intention to
confer immunity.
4)

A witness who, without asserting his privilege against self-incrimination,
give evidence in a legal proceeding other than a Grand jury proceeding does
not receive immunity.

5)

The rules governing the circumstances in which witnesses may be compelled to
give evidence and in which they receive Immunity therefor in Grand Jury
proceedings are prescribed in section 190.40 of the CPL (see above)

IMMUNITY DEFINED
TRANSACTIONAL Vs. USE IMMUNITY
The immunity conferred upon a person under the Federal Constitution and laws
is known as "use immunity", and the immunity conferred by New York law is known
l

as "Transactional Immunity".
"Use Immunity" bars the use in a criminal proceeding of any compelled
testimony or other information, or any information directly or indirectly derived

20A

therefrom, and

“such Immunity from use and derivative use is coextensive with

the scope of the [Federal] privilege against self-incrimination, and therefore
is sufficient to compel testimony [in a federal legal proceeding] over a claim
of the privilege.” Kastigar v. Unitea States, 406 U.S 441, 453, 92 S.Ct. 1653,
1661, 321 L.E.d2d 212 (1972). Thus, under Federal Law, a person who receives
"use Immunity" may still be prosecuted, provided that the testimony or other
information which was compelled and any evidence derived therefrom is- not
utilized. New York Statute [CPL § 50.10] provides ‘'Transactional Inmunity."
"Transactional Immunity" is defined by CPL § 50.10(1) to bar a person from
being "convicted of any offense or subjected to any penalty or forfeiture for or
on account of any transaction, matter or thing concerning which he gave evidence
therein." "Transactional Immunity" therefore, affords a person "considerably
broader protection than does the Fifth Amendment privilege,

Kastigar, 406 U.S

at 453; People v. Sabotker, 61 N.Y.2d 44, 47, 471 N.Y.S.2d 78, 459 N.E.2d 187
(1984).
When "transactional Immunity" is not forthcoming pursuant to the dictates
of New York's statutory laws, but a person's Fifth Amendment privilege nas been
breached, the Federal Constitution controls and dictates uhat the person be
accorded use

Immunity against

the use or derivative use of his

or her

"compelled" statements. Parenthetically, for a short period, it appeared that
the court of Appeals had interpreted New York's statutory law to accord only
"use Immunity", but that interpretation was promptly overruled, see People v.
Laballo, 24 N.Y.2d 598, 301 N.Y.S.2d 544, 249 N.E.2d 412 (April 24, 1969),
overruled by Gold v. Menna, 25 N.Y.2d 475, 481, 307 N.Y.S.2d 33, 255 N.E.2d 235
(1969).
GPL § 710.40, MOTION TO SUPPRESS EVIDENCE, WHEN MADE AND DETERMINED

21A

1) A motion to suppress evidence must not be made after the commencement of the
criminal action in which such evidence is allegedly about to be offered,
and, except as otherwise provided in section 710.30 and in subdivision two
at this section, it must be made within the period provided in subdivision
one of section 255.20.

2)

The motion may be made for the first time when, owing to unawareness of
facts constituting the basis thereof or to other factors, the defendant did
not have reasonable opportunity to make the motion previously, or when the
evidence which he seeks to suppress is of a kind specified in section 710.30
and he was not served by the

people, as provided in said section 710.30,

with a pre-trial notice of intention to offer such evidence at the trial.

u)

wlien tne motion is made before trial, the trial may not be commenced until
determination of the motion.

4)

If arter a pre-trial de r e l ..anation and denial of the motion the court is
satisfied upon a showing by the defendant, that additional pertinent facts
have been discovered by the defendant which he could not have discovered
with reasonable diligence before the determination of the motion, it may
permit him to renew the moLion before rrial or. if such was not possible
owing to the time of the discovery of the alleged new facts, during trial.

This section establishes the time frame for making and deciding a
morion to suppress evidence. Basically,

the procedure mandates a motion

prior to trial in situations where defendant is aware, or should with

22A

reasonable diligence have been aware, of the basis for the motion. In such case
the motion must be made within forty=five days after defendant has been
arraigned on the Information or indictment... [T]he forty-five day window for
bringing the motion is a concomitant of the Omnibus Motion procedure designed to
prevent

multiple motions

for matters

that

should

be decided prior

to

commencement of the trial. [Ojrdinarily, failure to move for suppression within
the forty-five day window will result in suranary denial of the motion. However,
if defendant can show unawareness of the factual basis for a motion to suppress
due either to the people's failure to serve the § 710.30 notice or through
learning of some other fact notwithstanding the exercise of due diligence, the
court will for good cause nevertheless entertain the motion.
Note that it is not unusual for defendant to learn additional facts that
could furnish the basis for a new motion to suppress notwithstanding another or
a prior suppression hearing. For example, new information may be disclosed at a
suppression hearing on another issue (see e.g., People v. Boyer, 6 N.Y.3d 427,
813 N.Y.S.2d 31, 846 N.E.2d 461 [basis for a Wade motion uncovered during
testimony at a Huntly hearing];, or defendant may subsequently learn new facts
disclosed in Grand jury testimony delivered by the people (People v. Clark, 88
N.Y.2d 552, 647 N.Y.S.2d 479, 670 N.E.2d 980 (1966) [conflict between testimony
in Grand Jury and at suppression hearing relevant to identification]. In such
case defendant may move for an additional hearing or to reopen one already
decided (see subd. 4 of this section and GPL § 255.20[3]), provided the
pertinent new facts are material to the issue of suppression, see Clark, Supra.

23A

APPENDIX
E

*

APPENDIX
H

APPENDIX H
SUPREME COURT OF THE STATE OF NEW YORK
APPELLATE DIVISION, FOURTH JUDICIAL DEPARTMENT

774
KA 11-00357
PRESENT: SCUDDER, P.J., SMITH, FAHEY, LINDLEY, AND MARTOCHE, JJ.
THE PEOPLE OF THE STATE OF NEW YORK, RESPONDENT,
V.

MEMORANDUM AND ORDER

JUSTIN T. WOODARD, DEFENDANT- APPELLANT.

LINDA M. CAMPBELL, SYRACUSE, FOR DEFENDANT- APPELLANT.
SANDRA DOORLEY, DISTRICT ATTORNEY, ROCHESTER (LESLIE E. SWIFT OF
COUNSEL), FOR RESPONDENT.

ADDSa]
i l

from

----- --- ”■

a
—

ilUoptnpnr

.j — '-£>•*- ***'- *» w

r>
f
v*.

f-l-io

CunrnmD
u.i

uwui. w j

ilWili UC

—

v_i V*# Li L ] L- V

(David D. Egan, J.), rendered May 14, 2009. The judgment convicted
defendant upon a jury verdict, of murder in the second degree and
attempted Robbery in the first degree.
It is hereby ordered that the judgment so appealed from is
unanimously affirmed.
Memorandum:
Defendant appeals from a judgment convicting him
following a jury trial of Murder in the second degree [Penal Law §
125.25[3] [Felony Murder]) and attempted robbery in the first degree
( 85 nn no J. w V • -cL A- j / a. Li
tiuil WJ.LU Lilt! auuuLiug uecltn U£ me
\

OO

^ v •

v v

I y\ fj

”1

» I

/

l

I

T n n ri M 7—»

V *1 «'■>> t“\

r t -i

4- L

4> 1a

a

La a a i. J _

_3 _ _ x. •>

. ,/T

i "!

_

victim by one or both of the co-defendants. Defendant contends that
Supreme court erred in refusing . to instruct the jury on the
affirmative defense to felony murder (§ 125.25[3]), on the ground
Lnat there was no evidence to support a determination that defendant
knew that the co-defendants' guns were loaded. We reject that
contention (see People v. Cox, 21 AD3d 1361, lv denied 6 NY3d 753).

39A.

the evidence established that defendant willingly drove the
codefendants from Elmira to Rochester for the express purpose of
robbing the victim and that defendant knew that the codefendants had
guns with them for that purpose. Thus, when viewing the evidence in
the light most favorable to the defendant (see People v. White, 79
NY2d 900,. 903), we conclude that the evidence does not support the
affirmative defense (see People v. Samuel, 88 AD3d 1020, 1021, Iv
denied 18 NY3d 861; cf. People v. Cable, 96 AD2d 251, 260-261, revd
on other grounds sub nom. Matter of Anthony M. , 63 NY2d 270).
Defendant failed to preserve for our review his contention
that the court erred in refusing to permit defense counsel to pursue
questioning at the suppression hearing with respect to whether
defendant's arrest was based upon probable cause, because defendant
did not move to . suppress
evidence on that ground (see People v.
Mobley, 49 AD3d 1343, 1343-1344, lv denied, 11 NY3d 791). Defendant
also failed to preserve for our review his contention that the court
abused its discretion and denied defendant-'his constitutional rights
by denying his motion pursuant 'to
CPL 710.40(4) to reopen the
suppression on the issue whether the arrest was based on probable
r* anoQ
v

«

T
nof
J.HW wv^uu

^

A
of
uw j. v.Liuun

u

onnrrKf
wvu
u w.

fuv

— onan
u p u i. t

i*
,3
^,u.C

In
e o r i rs rr
uvuL

V\c>o<a/“l
wu w uu

jupun
mnn

his contention that1 he invoked his right to counsel when he was
arrested in Elmira, before being transported to meet with police
officers from the Rochester Police department (see Mobley, 49 AD3d
at 1343-1344). "Because defendant had knowledge of the facts
surrounding his arrest, those facts may not be considered additional
pertinent facts... discovered by the defendant which he could not
have discovered with reasonable diligence before the determination
of the motion" (People v. Simon, 222 AD2d 1117, 1117, lv denied 87
NY2d 977, rearg denied 88 NY2d 854 [internal quotation marks
omitted]; see CPL 710.40[4]). In any event, inasmuch as evidence at
the suppression hearing established that defendant had been
identified in a photo array as a participant in the crime prior to
his arrest, we conclude that the arrest was based upon probable
cause (see people v. Dumbleton, 67 AD3d 1451, 1452, lv denied 14
NY3d 770).

’

40A.

defendant

also

failed

to

preserve

for
our review his
conuention that the court erred in permitting the people to use his
Grand jury testimony in their direct case in contravention of a
cooperation agreement defendant had signed )( see CPL 470.15(2]). In
any eveni, we conclude that any error is harmless inasmuch as the
evidence is overwhelming and there is not a significant probability
that he would
have been acquitted if the alleged error had not
occurred (see People v. Crimins 36 NY2d 230, 241-242). Defendant's
SLatement to the police, which was consistent with his Grand jury
i
testimony, was also admitted in. evidence and it was corroborated
by the testimony of an eyewitness and by physical evidence (see
generally People v. Faust
995).

7j Ni2d 828, 829, rearg. denied 72 NY2d

We reject defendant's contention that he was deprived of
effective assistance of counsel. The failure to provide a specific
basis j.or a rriai order of dismissal that had no chance of success
does not constitute ineffective assistance of counsel ( see people
v. Horton, 79 AD3d 1614, 1616, Iv denied 16 NY3d 859). Indeed,
defendant does not contend on appeal that the evidence is legally
insufficient
to support the conviction (see i.d.).
Further,
derendant had failed to demonstrate that a motion to suppress his
stauenient based on the lack or probable cause for his arrest
if
made
would have been successful, and thus- he has failed to
establish that defense counsel was ineffective for failing to make
the motion (see People v. Borcyk, 60 AD3d 1489, 1490, Iv denied 12
NY3d 923). defendant;s remaining contentions with respect to
derense counsel's performance either are outside the "record and
thus not reviewable on direct appeal ( see people v. Slater, 61
AD3d 1328 lc29, Iv denied 13 NY3d 749). or they are without merit
( see generally People v. Balbi, 54 NY2d 137, 147).
Finally, in light of his willing participation in the plan to
rob the victim and his knowledge that the codefendants
both had
guns, we reject defendant's contention that the sentence is unduly
harsh and severe.
Entered: June 15, 2012

Frances E. Cafarell
Clerk of the court

41A.

J

•'1

ft

APPENDIX
I

SPA1
APPENDIX I
Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 1 of 30

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF NEW YORK
t

r>

JUSTIN WOODARD,
Petitioner,
-vs-

No. 6:13-CV-6123(MAT)
DECISION AND ORDER

PAUL CHAPPIUS, Superintendent,
Elmira Correctional Facility,
Respondent.

I.

Introduction
Justin Woodard

("Woodard" or "Petitioner")

filed a pro se

habeas corpus application pursuant to 28 U.S.C. § 2254, alleging
that he is being held in Respondent's custody in violation of his
federal constitutional rights. Petitioner's state custody arises
">■

from a judgment entered on May 14, 2009, in New York State Supreme
Court, Monroe County, convicting him, after a jury trial, of Murder
in the Second Degree

(N.Y.

Penal Law

("P.L.")

Law § 125.25(3)

(felony murder)) and Attempted Robbery in the First Degree (P.L.
§§ 110.00, 160.15(3)). Petitioner is serving concurrent sentences
aggregating 20. years to life in prison, plus five years of postrelease supervision.
II.

r

Factual Background
On January 14,

Monte Burks

2007,

("Burks")

at approximately 4:00 p.m.,

Kentrell

received a telephone call at home

from

William "Bubba" Miller ("Miller"), with whom he had been friends

42A.

r

SPA2

Case 6:13-cv-06123-MAT Document 16 Filed 01713/14 Page 2 of 30

for seven or eight years. T.239-40, 243.1 Burks referred to Miller
as his "cousin" even though they were not blood relatives. T.286.

.1
\

!

4
Soon after Burks received the phone call, Miller arrived in a van

f

driven by a heavy set, Hispanic-looking man, whom Burks identified

14

later as Woodard. .Accompanying them was Miller's girlfriend, whom

4

Burks only knew as "Cha Chi", and several of Cha Chi's children.
T.240-41. The person in the front passenger's seat passenger was a
"skinnier guy,

looked Hispanic,

Miller's

suggestion,

Miller's

sister,

they went

real slender[.] 2 „ T.241-42 .

At

to

of

Carmella Miller

the

Norton

("Carmella"),

Street

home

to play cards.

T.244-45.

\

. Miller and Carmella argued about her boyfriend, Keith Holloway
("Holloway"), having touched Carmella's youngest son in a sexual
manner. .T.245.

Miller asked the

children to

1

demonstrate what

Holloway had done,, and they showed "hand gestures and fondling of
thefir] private areas." T.286. Burks, Miller, Petitioner, Brewer,.
Cha Chi, and the children all went to Miller's mother's new house

Numerals preceded by "T." refer to pages from the transcript
of Woodard's trial.. Numerals preceded by "H." refer to pages.from
the transcript of the pre-trial suppression hearing.

,.4

‘i

2

This individual was co-defendant Robert Brewer ("Brewer").
Respondent indicates that he and Miller also were charged with
murder and tried separately, and both apparently were convicted of
second-degree murder and sentenced to prison' terms of 25 years to
life. A Westlaw search does not reflect any appellate activity with
respect to these convictions, suggesting that'Brewer and Miller may
not have completed their appeals.

i

!

43A

SPA3

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 3 of 30

in the Town of Gates or Greece. T.246-247, 282. Cha Chi stayed
there with the children, while the others returned to'Carmella's
home. T.248, 289. Miller and his sister continued to argue about
what Holloway had done. T.248.
At some point, Burks left with Miller, Petitioner, and Brewer.
They made three or four stops in the area of Parsells Avenue, where
Holloway stayed. T.248-50. According to Burks, "Miller kept talking
about how he was going to rob or get at Keith Holloway" and "fuck'
'em up." T.250. Petitioner was "not really doing too much," just
"pacing back and forth." .T.251. When the men returned to Norton.
Street, there was yet more arguing between Miller and his sister.
T.251. According to Burks, Woodard and Brewer left the - apartment
for about 15 minutes and then returned. T.252.
Eventually, Miller had his sister call Holloway and ask him to
come over to the Norton Street house. T.252. Burks tried to talk
them out of it "[b]ecause William Miller had been drinking, the
other

guy had been drinking,

[and there was]

just

a

lot

of

animosity in the air." Id. Burks decided to leave, but before he
could do so, Holloway arrived. T.252-53. At that point, Petitioner,
Vs,

Miller, and Brewer were all in the dining room. T.254-55. Burks
"heard William Miller say, [']What up, nigger,['] and then I heard
the

[skinny]

it [. ]

r tr

Hispanic guy

[i.e.,

Brewer]

say,

[v]Nigger,

run

T.254. Burks explained that the phrase, "run it", 'means,

"Give it to me, I am robbing you, basically." T.254.

44A.

SPA4

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 4 of 30

Burks looked over his shoulder and saw "the [skinny] Hispanic
guy [i.e., Brewer] with the gun raised" and pointed at Holloway's
head.

T.253.

Holloway put his hands over his face and started
/*:

backing up. Burks then heard four or five gunshots, so he "got out

V.\

of there". T.255. Burks did not see Holloway hit the ground and did
not see what happened after he (Burks) started running.
Burks

admitted

on

cross-examination

that

in

his

initial

statements, to the authorities, he falsely stated that he did not
know who the shooter was.
Woodard and Miller,

He explained that he was afraid of

who were not in custody and knew where he

lived. According to Burks, Miller told him that he had better not
talk; otherwise Miller was "going to come see [him]" next. T.25658. r
The autopsy: performed on Holloway revealed multiple gunshot
wounds as well as blunt force injuries to his skull. See T.407-10:
Holloway sustained a gunshot wound through the head and one through'
the torso,

each of which independently was sufficient, to cause

!

death. See T.417-19.
Rochester Police Department ("RPD") Investigator Neil O'Brien
("O'Brien") was assigned to investigate Holloway's death; he was
assisted by Investigator William Lawler ("Lawler"). On November 8,
2 007, a witness who was. subject to a protective order viewed a
"six-pack" photo array in the presence of O'Brien and Investigator
Randy Benjamin ("Benjamin") .: H.31-32, 55. The witness "immediately"

45A.

{

SPA5

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page.5 of 30

selected number 5
witness

(Woodard's photo) and said, "That's him." The

described Woodard as

"the bigger of

the two Hispanic

looking people that were with (Miller] that were at the house that
j

day on Norton Street." H.33, 57 .
At various times during the ten months following the shooting,
O'Brien

and

Lawler

conducted’ investigations

in

Elmira,

where

Petitioner lived. H.12-13. On November 20, 2007, Lawler and O'Brien
received a call that Petitioner was in .custody in Elmira.

The

Elmira police, who .did not have a warrant for Petitioner's arrest,
transferred custody of him to the RPD investigators at a rest stop
in Dansville. E . q, , H.36, 54.
After being advised of his rights, T.37-38, Petitioner stated
he understood them and said,

"I'll talk." H.39-40. O'Brien then

told Petitioner that they were investigating an incident involving
Miller and his girlfriend, both of whom Petitioner said he knew
from Elmira. O'Brien did not question Petitioner further about the
incident until

they arrived at

the

Public Safety Building in

Rochester about an hour later. Woodard said that he would tell them
what he knew if they would guarantee that he.could go home that

i

night. E.g., H.43, 61-62. After Benjamin spoke with an assistant
district attorney/he relayed following message to O'Brien to give
to Petitioner: If he told the truth, he would go home that night,
but there.was a "distinct possibility" that he could be arrested in
\j

the future for Holloway's murder. T.343.

46A.

SPA6

■M

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 6 of 30

Notwithstanding his potential exposure,.' Petitioner gave a
written statement to the investigators in which he stated that on
the day of the murder, he and Brewer had run into Miller, who said
that his niece or nephew had been raped by someone named Holloway,
a "big weed dealer" in Rochester. T.372. Miller "wanted to go to
Rochester to rob the kid who raped-his niece or nephew" and said
that he needed ride, so Petitioner offered to drive him. T.372.
Petitioner took his wife's van and drove Miller,

Cha Chi,

and

Brewer to Rochester. T.373.
Petitioner "knew Biz [i.e., Brewer] had a gun because [he] saw
it on.the.way up in the van" and because "Biz always has a gun and
this was a small Smith & Wesson nine millimeter." T.374. Petitioner
added that "Bubba
[Petitioner]

never

[i.e.,
saw

Miller]
it."

said that he had a gun,

T.374.

The

group

first

drove

but
to

Miller's mother's house and dropped off Miller's girlfriend. T.373.
Then they. picked up Miller's "cousin"

(i.e.,

Burks)

and drove

around looking for the intended victim's car. T.373. Unsuccessful
in their search, they drove to the residence of' Miller's sister,
Carmella,

whose . boyfriend,

Holloway,

was

the

intended victim.

T.373.
According to Petitioner, Carmella called Holloway and told him.
to come over to her house. In the interim, Petitioner left for a
period of time but returned to Carmella's house when he received a
call from Miller telling him that "the boyfriend was on his way."

47A.

SPA7

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 7 of 30

T. 373-74.

When.. Holloway arrived,

Carmella

let him in,

Miller

slammed the door closed, and Brewer pointed his gun at him. T.374.
Miller asked him, >\ \ Where's it at? t

"

When Holloway asked why they

were doing this to him, Brewer struck, him on the back of the head
with his gun. T.374. Petitioner stated that
[w]hen [Holloway]' stood back up, Bubba asked again,
"Where's it at?" The guy didn't respond and Biz-^shot at
the floor toward his feet. Then the guy ran toward the
back of the house into the kitchen. Biz ran,after him
with the gun, in his hand and I heard four quick shots.. I .
was at the door to leave out the house when I heard Bubba
say, "Finish him." Then I heard one more shot.
T.374. Petitioner said that he, Miller, and Brewer left together in
the van, and Miller threw the gun out of the window as they drove.
T. 375.3
Defense counsel called Carmella's neighbor, Alicia Thompkins
("Thompkins"), to impeach Burks on the following issues-that he did
not go by any nickname other than "Trell" and that he had last
worked at Department of Social Services ("DSS") as a security guard
in 2006. Thompkins testified that on the date of the shooting, she
met someone named "Turk" at Carmella's residence. Later that month, .
the police showed her a photograph of Burks. Thompkins recognized
Burks as the person she knew as "Turk" when she ran into him at the
DSS. T.487. This was in January of 2007, and he was working as a
security'guard. .

3

Petitioner's grand jury testimony was read into evidence at
trial as part of the prosecution's case-in-chief. See T.461-76.

48A.

SPA8

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 8 of 30

The jury returned a verdict convicting Petitioner as charged
in' the . indictment.

The trial court sentenced Petitioner to an

indeterminate prison term of 20 years to life on the murder count
and a determinate term of 15 years, plus five years of post-release
supervision, on the attempted robbery count. Those sentences were
set to run concurrently with each other.
Represented by new counsel, Petitioner appealed his conviction
to the Appellate Division, Fourth Department, of New York State
Supreme Court. On June 15, 2012, the Appellate Division unanimously
affirmed

the

conviction.

People

v.

Woodard,

96

A.D.3d

1619

(4th. Dep't .2012) . The New York Court of Appeals denied . leave to
appeal on September 12, 2012. People v. Woodard, 19 N.Y.3d 1030
(2012)..
- Petitioner-then filed a pro se petition-for a writ of error
coram

nobis

asserting

that

appellate

counsel

had

rendered

ineffective assistance by failing to argue that trial counsel had
been

ineffective- for not

objecting to

a portion

of .the

jury

instructions in which the trial court stated that the prosecution
did not have to prove Petitioner's guilt "beyond all possible
doubt". The. Appellate Division summarily'denied the petition on.
November 9, 2012, and the New York Court of Appeals denied leave toappeal on January 22, 2013. People v. Woodard,

10.0 A. D. 3d 1472

(4th Dept. 2012), lv. denied, 20 N.Y.3d 1015 (2013)..

49 A.

■1

«
<

SPA9

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 9 of 30

Petitioner

February 14,

filed

2013,

the

instant

habeas

petition

(Dkt

#1)

on

asserting the following grounds for relief:

(1) the trial court1erred at the suppression hearing in precluding
the defense from inquiring into the circumstances of Petitioner's
arrest by the Elmira, police;

(2) the trial court was deceived by

the prosecutor's misrepresentation regarding the terms of the
cooperation agreement, and thus erred in allowing the prosecutor to
introduce Petitioner's grand jury testimony during his case-inchief;

(3)

the

trial

suppression hearing,
..I

V

court erred in
(4)

the

refusing to

trial court erred in

re-open the
failing .to

instruct the jury as to the affirmative defense to felony murder;
and

(5). Petitioner was deprived of effective representation of

counsel in that counsel (a) failed to move for a Dunaway4 or Payton5
hearing when a question arose as to whether the police had probable
cause to arrest him;

(b)

failed to invoke a provision of the

cooperation agreement as a basis for excluding Petitioner's grand
jury testimony during the prosecution's direct case; (c) failed to
investigate

the

circumstances

surrounding

Petitioner's

arrest,

which would.have shown that he had invoked his right.to counsel;
and (d) failed to properly move for a trial order of dismissal and
renew the' motion at the close of evidence,

thereby precluding

appellate review of the sufficiency of the evidence.

Dunaway v. New York, 442 U.S. 200 (1979).
Payton v. New York, 445 U.S. 573 (1980) .

50A.

SPA10

Case 6:13-cv-06123-MAJ Document 16 Filed 01/13/14 Page 10 of 30

Prior

to

Respondent

filing

his

answer

to

the

petition,

Petitioner filed a motion to stay the petition or permit him to
withdraw

it

declaration

without
(Dkt #6)

prejudice

(Dkt

#5).

Respondent

filed

a

consenting to the withdrawal request but

reserving the right to assert any untimeliness argument that might
arise

if and when

Petitioner

re-filed the petition.

However,

Respondent .did not address Petitioner's alternative request for a
stay.
Respondent then filed an answer to the petition on August 21,
2013

(Dkt #11),

conceding that it was timely filed. Respondent

admits that Petitioner has exhausted all but two of his claims.
Petitioner filed a traverse in response to Respondent's opposition
memorandum of law..
■ The matter is now fully submitted and ready for decision. For
the reasons that follow, Petitioner's motion for a stay is denied.
Petitioner's request for a writ of habeas corpus is denied, and the
petition is- dismissed.
III. Motion for a Stay
In Rhines ' v. Weber, 544 U.S. 269 (2005), the Supreme Court
approved the stay^and-abeyance procedure outlined by the Second
Circuit in Zarvela v. Artuz 254 F.3d 374, 380-82 (2d Cir.), cert.
denied, 534 U.S. 1015 (2001), but held that it "is only appropriate
when- the'district court determines there was good cause for the
petitioner's failure to exhaust his claims first in state court."

51A.

SPA11

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 11 of 30

546 U.S.

at 277.

The Supreme Court explained that "even if a

petitioner had good cause for that failure,

the district court

would abuse its discretion if it were to grant him a stay when his
unexhausted claims are plainly meritless." Id.
§ 2254 (b) (2) ) . On the other hand,

(citing 28 U.S.C.

the Supreme Court noted,

"it.

likely would be an abuse of discretion for a district court to deny
a stay ... if the petitioner had good cause for his failure to
exhaust, his unexhausted claims are potentially meritorious, and
there is no indication that the petitioner engaged in intentionally
dilatory litigation tactics." Id. at 278.
Petitioner asserts that he needs a stay in order to have "the
opportunity to present Federal Constitutional issues which are
outside the record" in "an appropriate post judgment motion in the
State Courts." Dkt #5 at 1.' The only issue he identifies with
specificity is that he allegedly "suffered a Payton v. New York
violation

and

his

attorney

failed

to

redress

the

matter

of

[Petitioner being arrested in his home without an arrest or search
warrant."

Id.

Petitioner

investigate

the

failing

"interview

to

faults

circumstances
any

of

of

counsel

for

"fail[ing]

his

warrantless

several

witness

arrest"

'[sic]

to

to
and
his

warrantless arrest in his home." Id. at 2.
Here, as- discussed further below, even if trial counsel had
requested a Payton hearing and.had succeeded in demonstrating a
Payton violation, there would have been-no effect whatsoever on the

52A,

SPA12

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 12 of 30

verdict. Thus,

trial counsel's alleged error did not result in

prejudice, .a necessary element of an ineffective assistance claim.
Woodard's failure' to demonstrate any prejudice proves fatal to his
ineffectiveness claim. See Pavel v. Hollins, 261 F.3d 210, 216 (2d
Cir. 2001)

(stating that a habeas petitioner "must satisfy both

prongs

the

of

two-part

test

articulated

Washington]., 466 U.S. 688 (1984)].")

in

Strickland

[v.

L

(emphasis added). Since the

i!

issue as to which Woodard seeks permission to litigate in state
court is "plainly meritless", it would be an abuse of this Court's

f

discretion to grant a stay. Accordingly, Petitioner's motion for a
stay is denied with prejudice.
IV.

Exhaustion
Respondent asserts that Petitioner has failed to exhaust two

of his claims: that the trial court erred in declining to charge
the statutory affirmative defense to felony murder, and>that trial
counsel was ineffective in failing to investigate the circumstances
of his arrest. Respondent asserts that the jury instruction claim
must' be.deemed exhausted but procedurally defaulted, and that the
ineffective assistance claim remains unexhausted but may be denied
pursuant to '28 U.S.C.. §: 2254(b) (2) . In his traverse, Petitioner
asserts that he has fully exhausted his state-court remedies with
regard to all of his claims. However, Petitioner does not attempt
to show that .any procedural default should :be exhausted.

53A,

SPA13

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 13 of 30

In the interests of judicial economy, the Court will dispose
of both of these claims on the merits. See Dunham v. Travis, 313
F.3d 724, 729-730 (2d Cir. 2002) (discussing Lambrix v. Singletary,
520 U.S. 518, 523 (1997)

(stating that "hurdling" the procedural

bar is justified by a habeas court when the merits of a claim are
easily resolvable against the petitioner); 28 U.S.C. § 2254(b) (2)
(authorizing courts to deny mixed habeas petitions on the merits).
V. Standard of Review
The Anti-Terrorism and Effective Death Penalty Act' of 1996
("AEDPA")

applies to Woodards'

petition,

filed in 2013.

AEDPA

"revised the conditions under which federal courts may grant habeas
relief to a person in state custody." Kruelski v.:
Superior Court for Judicial Dist. of Danbury,
(2d Cir.2003)
stated that

Connecticut

316 F.3d 103, 106

(citing 28 U.S.C. § 2254). The Second Circuit has
"it is often appropriate

in considering a habeas

petition under the AEDPA for the federal court to go through.two
steps; first, the court determines what the correct interpretation
of

Supreme

Court precedent

is;

second,

if

the

state

court'.s

understanding or application of that precedent is determined to be
erroneous, the federal court must still ask whether that error was
a reasonable one." Kruelski, 316 F.3d at 106. Here, the Court need
not determine whether Woodard's, claims were adjudicated, on the
merits by the -state
because

his

claims

courts,- thereby triggering AEDPA - review,
fail

even

if . the

54A.

Court

applies

the

less

SPA14

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 14 of 30

deferential, pre-AEDPA standard. Messiah v. Duncan, 435 F.3d 186,
197

(2d .Cir. 2006) .

“vVI. Merits of the Petition
A.

Errors at the Suppression Hearing
1.

Woodard

Erroneous Limitation of Cross-Examination
asserts

that

the

trial

court

erred

during

the

suppression hearing by precluding defense counsel from inquiring
into the basis for his arrest by the Elmira police,

who then

transferred custody of Woodard to RPD investigators. According to
Woodard, had defense counsel been permitted to pursue that line of
inquiry,

he

would have

established that Woodard was

without probable cause by the Elmira police and,

arrested

as a result,

Woodard's subsequent statement to RPD Investigators O'Brien and
Benjamin should have been suppressed.
These claims, which implicate Woodard's Fourth Amendment right
to be

free • from - unreasonable searches and seizures, must be
^
.
assessed by reference to the Supreme Court's decision in Stone v.
Powell,

428 U.S.

465

(1976). Under Stone,

"where the State has

provided an opportunity for full and fair litigation of a Fourth
Amendment claim, a state prisoner may not be granted federal habeas
corpus

relief

on

the

ground

that

evidence

obtained

in

an

unconstitutional search or seizure was introduced at his trial."
428 U.S. at 494-95 (footnotes omitted). However, "[i]f the state
provides

no

corrective

procedures

55A.

at

all

to- redress

Fourth

*

SPA15

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 15 of 30

Amendment violations,

federal habeas corpus remains available."

Gates v. Henderson, 568 F.2d 830, 840 (2d Cir. 1977)

(en. banc) . In

addition, the Second Circuit noted, habeas relief may be possible
if "the state provides the process but in fact the defendant is
precluded

from

utilizing

it

by

breakdown in that process.

reason

of. an

unconscionable

." Id.

Here, both of Woodard's claims involve alleged -errors that
occurred during litigation of his Fourth Amendment claims at the
pretrial suppression hearing and on direct appeal. Thus, New York
State.corrective procedures were not only available to Petitioner,
but were employed by him. See, e.g., Singh v. Miller, 104 F. App'x
770,

772

(2d Cir.

2004)

(finding that petitioner

had

"ample

opportunity to vindicate his Fourth Amendment rights in the state
courts" when, inter alia, he "raised his Fourth Amendment argument
on appeal" to the Second Department).
Whether there.has been an "unconscionable breakdown" in the
state corrective process depends on "the existence and application
of

the

corrective

procedures

themselves"

rather

than

on

the

"outcome resulting from-the application of adequate state court
corrective procedures." Capellan v. Riley, 915 F.2d 67, 71 (2d Cir.
1992). There has been no showing that the state failed to provide
Woodard

a

full

and

fair

opportunity

to

litigate

the

Fourth

Amendment claims. In such case, the Stone bar on habeas.relief is

56A.

SPA16

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 16 of 30

"permanent and incurable. ..." Graham v. Costello, 299 F.3d 129,
134 (2d Cir. '2002) .
2.

Denial of Motion to Re-Open Suppression Hearing

Woodard argues that the trial court erred denying defense
counsel's

motion pursuant

("C.P.L.")

§

to New York Criminal

710.40 (4)6 to

Procedure

Law

re-open the suppression hearing to

explore the issue of whether Woodard's arrest by the Elmira police
was based on probable cause.

The Appellate Division held that

Woodard, failed to preserve this contention for review because his
motion,to reopen was based upon a different contention

(that’ he

invoked his right to counsel when he was arrested in Elmira, before
being transported to,meet with RPD officers) . Woodard, 96 A.D.'3d. at.
1619 (citation omitted) . The Appellate Division also found that the
suppression court had properly applied C.P.L. § 710.40(4) to deny
the. motion

because

Woodard

possessed

knowledge

of .the

facts

surrounding his arrest, which precluded them from being "considered.
additional pertinent facts" that could not have, discovered earlier
with reasonable diligence.

Id.

(quotation and quotation marks

omitted).

6

C.P.L.’ §'710.40(4) provides that if the defendant seeking
reopening shows "that additional pertinent facts have been
discovered by the defendant which he could not have discovered with
reasonable diligence before the determination of the motion", the
court "may permit him to renew the motion before trial. . . ." N.Y.
Crim. Proc. Law § 710.40(4) (emphasis supplied) .
■

4

1

57A.

V

r

SPA17

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 17 of 30

Federal courts may "entertain an application for a writ of
habeas corpus in behalf of a person in custody pursuant to the
judgment of a State court only on the ground that [the petitioner]
is in custody in violation of the Constitution or laws or treaties
of the United States." 28 U.S.C. § 2254(a)

(emphasis supplied).

"[I]t is not the province of a federal habeas court to reexamine
state-court determinations on state-law questions." Estelle v.
McGuire, 502 U.S. 62, ■67-68 ■ (1991) .
The Court finds that Woodard's claim regarding the denial of
his motion to reopen the suppression hearing presents solely a
matter of■state law. On direct appeal, Woodard relied upon*a state
statutory provision, C.P.L. § 710.40(4), in support of his argument
concerning the denial of the motion to reopen the suppression
hearing.

Furthermore,

as Woodard has conceded,

the decision to
'!)■

reopen a suppression hearing is a matter 1 of the trial court's
discretion. See People v. Fuentes, 53N.Y.2d892, 894 (1981) (cited
in Petitioner's Appellate Brief ("Pet'r App. Br.") at 22 (Dkt #10-'
■1) ) •

This claim accordingly is dismissed as not cognizable on

federal habeas review. See Tirado v. Walsh,

168 F. Supp.2dl62,

170-71 (S.D.N.Y. 2001) (rejecting petitioner's characterization of
claim that trial court improperly reopened suppression hearing as
a due process claim based on the Fourth and Fourteenth Amendments;
claim "was clearly a matter of state law" not cognizable on federal
habeas review).

!

58A.

;■

SPA18

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 18 of 30

1
Error in;Admitting Petitioner's Grand Jury Testimony
During the Prosecution's Direct Case

B.

1.

Factual Background

On December 7, 2010, Woodard signed a cooperation agreement
with the prosecution and the RPD, in which he agreed, inter alia.
to take a polygraph examination, testify truthfully, and not engage
in criminal conduct. See Respondent's Exhibit ("ReSp't Ex.") B at

■

i

287-90. If he successfully completed the terms of the agreement, he
would be permitted to plead guilty to

attempted first-degree

robbery in exchange for a five-year sentence. Id. at 288. However,
if he failed to meet the agreement's terms, the prosecution could
prosecute him for felony murder and attempted robbery.
latter

case,

statements

the

made

agreement provided that
by

[Petitioner]

during

"it

the

is

In the

agreed that

pendency

of

this

Agreement, regarding the crime specified above will not be used
against him on the People's direct case in that prosecution" but
"may be used for impeachment purposes and for rebuttal." Id. at
289.

In addition, Woodard signed a waiver of immunity prior to

testifying before the grand jury convened to consider charges
against Brewer and Miller. The waiver stated that he "consent[ed]
and agree[d] to the use against [him] of any testimony given by
[him]

upon

any

investigation,

hearing,

trial,

prosecution

or

proceeding." Resp't Ex. B at 213.
On December 26, 2007, while incarcerated, Woodard was charged
with promoting prison contraband,

and on February 28,

2008,

he

j

<

59A.
Sk-.»

-

4

SPA19

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 19 of 30

pleaded guilty and received a sentence of time served. Resp't Ex. B
at 285. Defense counsel terminated the cooperation agreement in a
letter dated June 23, 2008. Id. at 279. The prosecutor later agreed
to consider reinstating the agreement if Woodard passed a polygraph
test,

which he was unable to do.

Id.

at 285.

The prosecutor

accordingly did not reinstate the cooperation agreement. Id.
When the prosecution sought at trial to introduce Woodard's
grand jury testimony in its case-in-chief, defense counsel objected
on the basis that Woodard's written confession to the police was
"the same as what he testified to before the Grand Jury;•-,/ and that
the grand jury testimony would confuse the petj-f. jury because
Woodard was acting as a prosecution , witness when he testified
before the grand jury. 3/20/09 Transcript7 ("Tr.") at 10-11. Defense
counsel

did

not

reference

the

terms

of

the

then-terminated

cooperation agreement.

The prosecutor responded that Woodard's

testimony

an

constituted

admission,

and

that

he

had

"waived

immunity before he testified" in the grand jury and "signed a
contract that was very clear that in the-that that information
could be used against him in some future point in time. Id. at 12.
The . trial court ruled that the prosecutor would "be able to use
[the

testimony]."

prosecutor's

Id.

statement

Trial
that

counsel

"the

did - not

contract"

permitted

Petitioner's grand jury testimony against him.

r
>
*4

60A,

contest
the

the
use

The trial court

i

SPA20

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 20 of 30

agreed that the testimony constituted an admission and ruled that
it would admit the testimony. Trial counsel did not object.
2.

The Arguments on Appeal

Woodard asserted on direct appeal that the trial court erred
in permitting the prosecution to use his grand jury testimony in
its direct case, in contravention of the cooperation agreement. The
prosecution.argued that the issue was not preserved for appellate
review because although defense counsel sought preclusion of the
grand- jury

testimony,

he

did

so

not

on

the

basis

that

the

cooperation agreement required it. Instead, defense counsel argued
i

that because Woodard's written confession' was "the same as to what .
he testified to before the Grand Jury," admission of the grand jury
testimony constituted improper bolstering. See 3/20/07 Tr. at 11.
V

Relying- on C.P.L. § 470.05(2)‘, the Appellate Division held that
this claim was unpreserved for appellate review. Woodard, 96 A.D.S'd.
at '16-20 (citing N.Y. Crim. Proc. Law § 470.05 (2) ) . In any event, the
Appellate Division•held, "any error is harmless inasmuch as the
evidence is overwhelming and there is not' a significant probability
that he would have been acquitted if the alleged error had not
occurred!,]" Id. at 1620-21 (quotation omitted).. In particular, the
Appellate Division noted, Woodard's statement to the police, which
was consistent with the grand jury testimony,t also was admitted
into evidence, and the statement was corroborated by an eyewitness'
testimony and physical evidence. Id. at 1621 (citation omitted).

61A.

SPA21

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 21 of 30

Respondent now argues that the claim is procedurally defaulted.
as a result of the Appellate Division's reliance on an adequate and
independent state ground, and, in any event, is without merit. The
Court agrees that the claim is without merit and will bypass the
procedural default issue in order to address the substance of the
claim.
As Respondent argues, the prosecutor did not misrepresent the
terms of the cooperation agreement to the trial court. Although the
cooperation agreement did provide that in the event Petitioner
failed to meet its terms, his statements could not be used against
him on the prosecution's case-in-chief,

the agreement did not

indicate what might occur if it were terminated. Here, as noted
above, Petitioner terminated the agreement by his attorney's letter
of June 23, 2008, and.the prosecutor declined to reinstate it after
Petitioner -failed

his

polygraph

test.

Thus,

the - cooperation

agreement was no longer in effect. The only agreement in effect at
the time of trial was the waiver of immunity, which

did allow the.

prosecution to use Petitioner's grand jury testimony on its case­
in-chief . Although the prosecutor might have articulated this- point
with

more

clarity,

there

was

no

outstanding

agreement

that

precluded admission of Petitioner's grand jury testimony on the
prosecution's case-in-chief. Thus, the introduction Petitioner's
grand jury testimony was not done in violation of. any legally
operable contract.

The only agreement in effect did permit the

62A.

tl

SPA22 ;

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 22 of 30

introduction of that testimony. Arid, New York law provides that a
defendant's grand jury testimony is admissible on the prosecution's
case in chief as an admission. E. q. , People v. Rodriquez, 73 A.D.3d
815, 816 (2d Dep't 2010)
. C.

(collecting cases).

Failure to Charge the Jury on
Affirmative Defense to Felony Murder

Petitioner

claims

that

the

trial

the

court

"Non-Slayer"
erred

in

not

instructing the jury regarding the "non-slayer" affirmative defense
to felony murder set forth in P.L. § 125.25(3)). At trial, defense
counsel argued that the charge was warranted because there was no
evidence to support a determination that Woodard knew that the co­
defendants' guns were loaded. The Appellate Division rejected this
claim,

finding that "[t]he evidence established that

[Woodard]

willingly drove the. codefendants from Elmira to Rochester for the
express purpose of robbing the victim and that defendant knew that
the codefendants had guns with them for that purpose." People v.
Woodard,
omitted) .

96

A.D.3d

Thus,

at

even

1619-20

viewing

(internal

the

evidence

and
in

other
the

favorable to Woodard, the Appellate■Division found,
support the affirmative defense[.]" Id.

citations
light

most

it did "not

(citations omitted).

The petitioner's burden when collaterally challenging the
failure to issue an instruction is "even greater than the showing
required to establish plain error on direct appeal." Henderson v.
Kibbe, 431 U.S. 145, 154 (1977). A petitioner must show that he was
"erroneously deprived

of

a

jury

instruction

to which

he

was

V

63A.

f

SPA23

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 23 of 30

entitled under state law" before he can viably claim a violation of
his due process rights.
(2d Cir

Jackson v. Edwards,

404 F.3d 612,

621

2005); see also Davis v. Strack, 270 F.3d 111, 124

(2d

Cir. 2001) .
Under New York State law, to be entitled to the "non-slayer"
affirmative defense to felony murder, a defendant must establish,
by a preponderance of the evidence, that he did not commit the
homicidal act, or in any way solicit, request, command, importune,
cause, or aid in the commissioner thereof; was not armed with a
deadly weapon; had "no reasonable ground to believe" that any other
participant was armed with a deadly weapon; and had "no reasonable

ground to believe" that any other participant "intended to engage
in conduct likely to result in death or serious physical injury".
See N.Y. Penal Law § 125.25(3) (a)-(d) (emphasis supplied). The,charge
must be given if the record includes evidence which, viewed in the
light
i

most

favorable

to

the

defendant,

with

all

reasonably

permissible inferences drawn in his favor, satisfies the essential
elements of the affirmative defense.

See People v.

Steele,

26

N.Y.2d 526, 529 (1970). A jury must be instructed "on all claimed
defenses

which

are

supported

by

a

reasonable

view

of

the

<

evidence—not by any view of the evidence, however artificial or
irrational." People v. Butts, 72 N.Y.2d 746, 751 (1988)
in original).

64A.

(emphasis

SPA24

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 24 of 30

Even when viewed in the light most favorable to Woodard, the
evidence presented at trial at most supports a finding that Woodard
did not commit or aid in committing the homicidal act. and was not

i

armed with a deadly weapon. No affirmative evidence was introduced
to support the remaining two prongs of the non-slayer defense. See,
e - q.,

People v. Caicedo,

651 N.Y.S.2d 110,

111

(2d Dep't 1996)

(affirming denial of non-slayer defense in part because defendant's
statement failed to "establish that he lacked knowledge that one of
the participants had a gun" and established "only that he did not
see a gun") . Here, Woodard stated to the police that he knew Brewer
had a '9-mm handgun because he had seen it in the van. He also
stated Miller told him he had a gun, although Woodard did not see
it..

Woodard's statement to the police was read into the record at

trial. -The jury consequently could not have found that Woodard
reasonably believed no one was armed, the third element of the non­
slayer defense.
In addition, Woodard told the police that he knew Miller, who
claimed to be armed, wanted to rob Holloway, a reputed marijuana
dealer in Rochester,

in retaliation for allegedly, molesting his

sister's children. Miller needed a ride. to Rochester so that.he
could find Holloway, and Woodard agreed to drive him. Brewer asked
to go on the trip, and while they were all in the van, and Woodard
saw that Brewer had a gun. In Woodard's own statement, he admitted
that he knew at least one participant, who claimed to have a gun,

65A.

;

i

s

V

.

SPA25

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 25 of 30

intended to forcibly steal money from an alleged drug dealer. In
light of these facts, the jury could not have found that. Woodard
reasonably believed that no one intended to engage in conduct that
could have seriously injured or killed Holloway, and thus Woodard
also failed to establish by preponderating evidence the fourth
element of the non-slayer defense.
Because Woodard has failed to make the threshold showing that
the Appellate Division erred as a matter of state law in upholding
the trial court's refusal to charge the non-slayer defense, this
Court need not reach the question of whether his due process■rights
were violated. See Davis v. Strack, 270 F.3d 111,
2001)

(to

grant

habeas

relief,

court

must

124

find

(2d Cir.
that

the.

justification charge was required as a matter of New York state
law;, the failure to give the requested charge violated, due process;
and the state court's failure to issue the charge was "of such a
nature

that

it

is

remediable

by

habeas

corpus,

given

the

limitations prescribed by 28 U.S.C. § 2254").
D.

Ineffective Assistance of Trial Counsel

Woodard here raises the same errors of trial counsel that he
asserted on direct appeal. The Appellate Division discussed the
merits of the claims concerning counsel's failure to raise the
probable cause argument and failure to -make a specific motion for
a trial

order of dismissal,

but held that

the

remaining two

contentions regarding counsel's performance were "either outside

66A.

•

*

SPA26

. -t

v.

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 26 of 30

the. record and thus not reviewable on direct appeal, or they [were]
without merit[.]" People v. Woodard, 96 A.D.3d at 1621.

(internal

and other citations omitted).
Strickland, 466 U.S. 668, supra, announced a two-part test to
determine if counsel's assistance was ineffective: A defendant
first must show "counsel made errors so serious that counsel was
not functioning as the 'counsel' guaranteed the defendant by the
Sixth . Amendment"

and

second,

that

"there

is

a

reasonable

probability that, absent.the errors [by counsel], the fact finder
would have had a - reasonable doubt respecting guilt." Id. at 687,
695. As

discussed further below,

the Court finds that all . of

Woodard's theories in support of his ineffective assistance of
trial counsel claim are-without merit under Strickland.
1.
In

the

Failure to Request a Dunaway or Payton Hearing
context

of an alleged

failure to

raise a

Fourth

Amendment claim, Strickland requires the Court first to ask if the
claim would have been■successful. If so, the Court must ask whether
"the verdict

would' have been different

absent

the

excludable

evidence" that was the fruit of>the illegal arrest. Kimmelman v.
Morrison,

477 U.S.

365, .375

(1986). Woodard asserts that trial

counsel should have requested a Dunaway hearing to press his claim
that his'post-arrest statements were suppressible because there was
no probable cause for.his arrest under the circumstances known to
the police.

See Dunaway,

442 U.S.

i ■%"'

67A.

at 216-18. As .the Appellate

1

I

SPA27

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 27 of 30

Division noted, probable cause for Petitioner's arrest by Elmira
police did exist, as evidence adduced at the suppression hearing
established that Petitioner had been identified,

prior to his

arrest, in a photo array as a participant in the crimes. Woodard,
96 A.D.3d at 1620. Thus, Woodard cannot show that the request for
a Dunaway hearing was likely to be successful.
Woodard also asserts that trial counsel should have moved for
a Payton hearing to argue that the police arrested him without a
warrant

in

his

home,

thereby

rendering

the

subsequent .

identification procedure.suppressible as the fruit of an illegal
arrest. See Payton, 445 U.S. at 589. The Fourth Amendment clearly
"prohibits the police from making a warrantless and nonconsensual
entry into a suspect's home in order to make a routine felony
arrest",

Payton,

445 U.S.

at 576,

in the absence of "exigent

circumstances", Kirk v. Louisiana, 536 U.S. 635,. 638 (2002). Even
assuming that there was a Payton violation, Woodard, would not have
o

succeeded in obtaining suppression of the line-up identification, on
this basis. Neither the United States Constitution nor the New York
State Constitution "require[s] the suppression of evidence of a
lineup identification made after an arrest based on probable cause
but in violation of Payton." People v. Jones, 2 N.Y.3d 235, 2.44-45
(2004). Here, the line-up identification, was not "the product of"
the Payton violation but instead flowed.from the police having
probable cause to believe that Woodard was involved in the Norton

ry

68A.

«• —.
'i

SPA28

i5

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 28 of 30
1
j

Street

shooting

based

on

eyewitness'

an

photographic
x

identification. Jones,

2 N.Y.3d at 243

("Due to the lack of a

I

causal relationship between the Payton violation and the lineup
identifications in this case, the lineups were not the 'fruit of
the poisonous tree.'".)

(citations omitted). Because the line-up

identification would not have been suppressed based on any alleged
Payton violation, Woodard cannot show that he was prejudiced by
trial counsel's failure to request a Payton hearing.
2.

Failure to Properly Preserve A Claim
1

Petitioner claims that in opposing the prosecution's request
to seek admission of his grand jury testimony in its case-in-chief,
trial

counsel

should

have

relied

upon

the

provision

of

the ■ ,

cooperation,agreement that would have foreclosed that attempt. As
noted above,. Petitioner,
agreement by

letter,

through trial counsel,

and the cooperation

terminated the

agreement was

never

reinstated. The only agreement in effect at the time of trial was
the

waiver

of.

immunity

contract,

which did not preclude

the

prosecution from utilizing Petitioner's grand jury testimony in its
direct .case.

The. Court

cannot

say

that

trial

counsel

was

«

objectively unreasonable in declining to rely on an agreement that
no longer had any legal effect. Moreover, the Appellate Division
found that any error in admitting the grand jury testimony was
harmless, and therefore Petitioner has not demonstrated that he was
prejudiced by counsel's alleged error.

l

69A.

V

SPA29

Case 6:13-cv-06123-MAT Document 16 Filed 01/13/14 Page 29 of 30

3.

Failure to Investigate Petitioner's Arrest

Woodard contends that trial counsel was ineffective in failing
to

independently

investigate the

circumstances

of his

arrest.

Supposedly, had he done so, trial counsel would have learned that
Woodard had informed the Elmira police that he wanted an attorney,
thereby making Woodard's later waiver of his constitutional rights
at the Rochester police station invalid. The assertion that trial
counsel did not render adequate performance in this regard is
belied by the record. Trial counsel did move, by letter and formal
motion, to re-open the suppression hearing on the basis that he did
not

learn,

until

after the

suppression hearing,

of Woodard's

invocation of his right to counsel. However, as the trial court
found, that fact was "easily capable of being shared with" counsel,
and if Petitioner had withheld that information from counsel, "he
did so at his own peril." Resp't Ex. B at 341. Where, as here, the
client

himself

was

in

the

best

position

to

direct

counsel's

attention to the right-to-counsel issue, the subsequent attempt to
fault counsel for not investigating that.issue is specious.
4.

Failure to Make a Specific Motion for a Trial Order
of Dismissal

Woodard asserts that trial counsel was ineffective in failing
to make a specific motion for a trial order of dismissal,
purposes

of preserving a claim that the evidence was

for

legally

insufficient. As the Appellate Division pointed out,

Woodard's

appellate

that

counsel

did not bother

mm
70A.

arguing

on

appeal

the

«

SPA30

<

, Case 6:13-CV-06123-MAT Document 16 Filed 01/13/14 Page 30 of 30

evidence was legally insufficient, which suggests that appellate
counsel did not think it was one of Woodard's stronger issues.
Although the'claim was unpreserved, appellate counsel could have
urged the Appellate Division to invoke'its statutory authority to
review the claim in the interests of justice. The fact that counsel
did

not

do

so

suggests

that

she

reasonable probability of success.

realized

the

claim had

In these circumstances,

Appellate Division correctly found that

no

f

the

"[t]he failure to provide

a specific basis for a trial order of dismissal that had no chance
of success does not constitute ineffective assistance of counsel .
. ." Woodard, 96 A.D.3d at 1621.

J

VII. Conclusion
The application for a writ of habeas corpus is denied, and the

j

petition. (Dkt #1) is dismissed. Petitioner's motion for a stay (Dk.t
#5) is denied with prejudice. Because Petitioner has not "made a
showing of the denial of a constitutional right,"

)
<

28 U.S.C. § 2253(c) (2), the Court declines to issue a certificate

!

substantial

of appealability. The Clerk of the Court is requested, to close this
case.

I

SO ORDERED.
S/Michael A. Telesca
HONORABLE MICHAEL A. TELESCA
United States District Judge
DATED:

January 13, 2014
Rochester, New York

71A.,

I-

t

APPENDIX
J

r

APPENDIX J

631 Eed. Appx. 65
This case was not selected for
publication in West's Federal Reporter.
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT, CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY
1? 2007, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE
32.1 AND THIS COURT'S LOCAL RULE 32.1.1.
WHEN CITING A SUMMARY ORDER IN A
DOCUMENT FILED WITH THIS COURT, A PARTY
MUST CITE EITHER THE FEDERAL APPENDIX
OR AN ELECTRONIC DATABASE (WITH THE
NOTATION ’’SUMMARY ORDER"). A PARTY CITING
A SUMMARY ORDER MUST SERVE A COPY OF IT
ON ANY PARTY NOT REPRESENTED BY COUNSEL.
United States court of Appeals
Second Circuit.

W

Jus tin WOODARD

Petitioner-Appellant,
v.
Paul CHAPPIUS, Respondent-Appellee.
No. 14-701-pr.
!

‘

Jan. 22, 2016

Appeal from, the United states District Court for the Western
District of New York (Telesca, J.)
*66

ON CONSIDERATION WHEREOF, IT IS HEREBY ORDERED AND DECREED
the order of Said District Court be and it hereby is AFFIRMED.

that

Attorney!s and law Firms omitted.
SUMMARY ORDER
Petitioner-Appellant Justin Woodard appeals from the January
13, 2014 order of the United States District Court for
the Western
District of New York (Teissca,J.), dismissing his petition for Habeas
Corpus brought pursuant to 28 U.S.C § 2254 and denying his motion for
a stay so that he could exhaust his unexhausted claims in state
cour t . We assume the parties' familiarity with the underlying facts,
procedural history, and specification of issues for review.

72A.

At issue in this appeal is whether the .district court
improperly denied a stay of the proceedings to allow Woodard to
exhaust available state remedies on his claim that trial counsel was
constitutionally ineffective in failing (1) to request a hearing as
to the validity of Woodard's warrantless arrest
and (2) to
investigate whether arrest circumstances warranted suppression of
Woodard’s confession for violation of. Miranda v. Arizona, 384 U.S 436
(1966). We review a district court’s denial of a stay for abuse of
discretion. Under Shines v. Weber, 544 U.S 269, 125 S.ct. 1528, 161
L.Ed.2d 440 (2005), a district court abuses its discretion in denying
a stay to exhaust claims in a mixed petition if the unexhausted
claims are not plainly meritless, if the petition has good cause for
failing to exhaust, and if the. petitioner did not engage in abusive
dilatory litigation tactics, id. at 277-78, 125 S.ct. 1528.
The district court did not abuse its discretion in denying a
stay so that Woodard could exhaust his ineffective assistance of
counsel claims because these claims are plainly meritless. Pursuant
to the well-known two-part test of Strckland v. Washington, 466 U.S
668, a Habeas Petitioner alleging ineffective assistance of counsel
"must demonstrate (1) that his counsel's performance fell below -what
could be expected of a reasonably competent practitioner; and (2)
that he was prejudiced by that substandard performance." Pearson v.
Callahan, 555 U.S 223, 241, 129 S.ct 808, 172 L.E.d.2d 565 (2009)
(citing Strickland,
(Supra).
To show actual prejudice. under
Strickland, Woodard must show that "that there is a reasonable
probability that the verdict would have been different absent the
excludable evidence." Kimmelman v. Morrison, 477 U.S 365, 375, 106
S.ct. 2574, 91 L.E.d.2d 305 (1986). Woodard argues that his attorney
was constitutionally ineffective in failing to investigate the
circumstances of the statement he gave to police on November 20,
2007, and failing to move to suppress that statement on several
grounds. However, even if Woodard is correct that the statement
should have been suppressed, there is no reasonable probability of a
different verdict and therefore, no prejudice.
In addition to giving the November. 20, 2007 statement

73.

*

confessing to participating in the attempted robbery and the felony
murder of Keith Holloway,
Woodard also testified about
his
participation in those crimes before a Grand Jury pursuant.. to a
cooperation agreement that he later violated,

and after signing a
waiver of Immunity. Specifically, Woodard testified that on January
14, 2007
he was with Robert Brewer. Woodard and Brewer ran into
William miller, who was upset because he believed someone had raped
his nephew. Miller stated that he wanted to go to Rochester to rob
the individual he believed had raped his nephew7, Woodard testified
that Brewer stated that he wanted to participate in the robbery, and
t HP f*
TJ w wu Ui. vi
o
A
**
dr*
t -vJ. /s
c c±
cu
to give them a ride to Rochester. Woodard
testified that after arriving in Rochester , they drove around
searching for the victim, Holloway
because
according to Woodard
m

5

"we wanfced to rob him." App'x at 1206. Woodard also testified that,
when they were driving to Rochester he saw that Brewer had a ninemillimeter gun. Woodard testified that he left for a period of time
with Brewer, but he then received a call from Miller that Holloway
was going to Miller's sister's house, and Woodard and
Brewer
therefore went to that house. Woodard testified that when Holloway
arrived/ Brewer pointed the gun at him, and Miller said "Where's it
at?," meaning, "Where's the stuff, where's the money[?]"
App'x at
1210. Brewer pistol-wnipped Holloway, and then shot at his feet.
Holloway then ran toward the Kitchen with Brewer running after him
and shooting at him. Miller asked Brewer. if Holloway was dead
y
Brewer said he did not know, and Miller told him, "Finish Him."
App'x at 1211. Brewer returned to the kitchen, and Woodard heard
another shot,
that he s aw everything that
Woodard testified
occurred. Woodard testified that he then drove Brewer and Miller
to
Miller's mother's house
during which Brewer threw the ninemillimeter gun out the window, and then drove Brewer and Miller to
Elmira. This testimony, in addition to the November 20, 2007
statement, was introduced against Woodard at trial. The substance of
Woodard's

Grand

Jury

testimony

prior statement. The only
November 20 2007 statement,

was essentially
even material fact

identical

to

his

included in the
but not the grand jury testimony, was
thau Miller told Woodard prior to the attempted robbery that he also

74 A.

ir

%

had a gun.
Woodard's

grand

jury

testimony

was

corroborated

by

other

evidence at trial. Kentrell Burks, another witness to the attempted
robbery
and
murder,
testified
against
Woodard
at
trial
corroborating in large part the details of Woodard’s Grand Jury
testimony.

Finally,

an

evidence

technician

testified

about

recovering bullets and nine-millimeter casings in the locations
where Woodard described shots being fired, and the medical examiner
testified that Holloway sustained blunt force trauma to his face,
which was consistent with Woodard’s testimony that Brewer pistolwhipped Holloway before shooting him.
Woodard

raises

no

colorable

argument

testimony should have also been suppressed,

that
or

the

Grand

jury

that he would not

have testified before the Grand jury had his statement been
suppressed. Indeed, he testified before the grand jury on December
14, 2007, and the suppression hearing was not until January 15,
2009. Thus, even if the November 20, 2007 statement had been
suppressed, given that another confession, given under oath, was
introduced at trial and corroborated by other evidence, there is
simply no reasonable probability that Woodard would not have been
convicted at trial. Because he has suffered no actual prejudice, his
Strickland claims are plainly meritless, and the district court did
not abuse is discretion in denying Woodard's motion for a stay so
that he could exhaust those claims.

find

We have considered the remainder of Woodard’s arguments and
them to be *68 without merit. Accordingly, the order of the

district court hereby is affirmed.
ALL CITATIONS
631 Fed Appx. 65
End of document.

75A.

Additional material
from this filing is
available in the
Clerk's Office.

